<html>
<title> - AN OVERVIEW OF THE BUDGET PROPOSAL FOR THE DEPARTMENT OF ENERGY FOR FISCAL YEAR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                   AN OVERVIEW OF THE BUDGET PROPOSAL
                      FOR THE DEPARTMENT OF ENERGY
                          FOR FISCAL YEAR 2019

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2018

                               __________

                           Serial No. 115-58

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                       _________

            U.S. GOVERNMENT PUBLISHING OFFICE
                   
30-321 PDF          WASHINGTON : 2019            
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
DANIEL WEBSTER, Florida              PAUL TONKO, New York
JIM BANKS, Indiana                   BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  MARK TAKANO, California
ROGER W. MARSHALL, Kansas            COLLEEN HANABUSA, Hawaii
NEAL P. DUNN, Florida                CHARLIE CRIST, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina

                            C O N T E N T S

                              May 9, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements


Statement by Representative Lamar Smith, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     4
    Written Statement............................................     5

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     7
    Written Statement............................................     9

                               Witnesses:

The Honorable Rick Perry, Secretary, Department of Energy
    Oral Statement...............................................    11
    Written Statement............................................    13

Discussion.......................................................    27

             Appendix I: Answers to Post-Hearing Questions

The Honorable Rick Perry, Secretary, Department of Energy........   140


                   AN OVERVIEW OF THE BUDGET PROPOSAL



                      FOR THE DEPARTMENT OF ENERGY



                          FOR FISCAL YEAR 2019

                              ----------                              


                         WEDNESDAY, MAY 9, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 9:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing entitled ``An Overview of the 
Budget Proposal for the Department of Energy for Fiscal Year 
2019.''
    First of all, I'd like to thank Secretary Perry for being 
here today. And just as a reminder to everyone, this committee 
has jurisdiction over all of the Department of Energy's 
civilian research and development. That's $10 billion or about 
1/3 of their budget.
    I do want to say to Members that the Secretary has to leave 
at 10:30 sharp in order to get to a meeting at the White House, 
and so I'm going to do two things so that we'll make sure we 
have plenty of time for Members to ask questions. One, I'm 
going to put my opening statement into the record and also 
would like to limit questioning to four minutes per person, and 
that way I think we'll have time for everybody.
    At this point I'll recognize the Ranking Member, the 
gentlewoman from Texas, for her opening statement.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Before I begin my statement, I want to welcome to the full 
Committee Mr. Conor Lamb, who is one of our newest elected. And 
this is a very dynamic Committee, as you will understand later 
and could be better. A lot of Texans on this committee.
    Thank you, Mr. Chairman, for holding the hearing, and thank 
you, Secretary Perry, for finally appearing before us today. 
And it's good to see you again, our longest-serving Texas 
Governor. And I knew him every day of it.
    As you know, this committee has jurisdiction over the 
Department of Energy's vitally important science and energy 
research and development activities, the laboratories and 
facilities, so I hope we can see you much more frequently 
because we need your input, and I look forward to working with 
you for years to come.
    In that spirit, I'd like to highlight some remarks you have 
made recently that I appreciate and wholeheartedly agree. In 
the address to the ARPA-E Energy Innovation Summit in March, 
you told the audience that you hoped they would, and I quote, 
``enjoy the many high-potential, high-impact technologies that 
ARPA-E has moved out of the lab and toward deployment.'' That's 
also one of the areas that I have great interest.
    You also announced that ARPA-E projects have attracted more 
than $2.6 billion in private-sector follow-up funding. Seventy-
one projects have formed new companies, and 109 have gone on to 
partner with other government agencies to further their 
research. And you went on to say that--and again I quote--
``ARPA-E is one of the reasons DOE has had and is having such a 
profound impact on American lives.''
    Secretary Perry, you have been singing my song. And yet, as 
I'm sure you're aware, you made these remarks just a few weeks 
after the Administration proposed to eliminate ARPA-E for the 
second year in a row. You're also proposing a 70 percent cut to 
research carried out by DOE's Office of Energy Efficiency and 
Renewable Energies, a 37 percent cut to the Offices of 
Electricity and Nuclear Energy, and 31 percent cut to fossil 
fuel energy R&D.
    And last but certainly not least, you are again proposing 
to eliminate DOE's remarkably successful Loan Programs Office, 
which has been instrumental in launching the utility-scale PV 
industry, the construction of our first new nuclear reactors in 
30 years and announced, and are now supporting the 
commercialization of new carbon capture and reuse technologies 
for fossil fuel fossil energy system.
    And so I have to ask, given your consistent praise for 
ARPA-E and DOE's energy technology and innovation programs more 
broadly throughout your tenure as Secretary of Energy to date, 
how do we make sense of this budget request? The Department's 
arguments about the value of these activities fall on deaf ears 
at OMB. Did you even push back on any of these ill-conceived 
draconian cuts at all?
    By all credible accounts, American industry will not fund 
the activities that are proposed for elimination no matter how 
much the Administration would like to think so. The Department 
could have heard from industry directly, but for the second 
year in a row, we heard from the Department officials that they 
did not formally engage with the private sector in deciding 
what activities we would cut--you would cut. And yet, that did 
not stop you from rationalizing these large cuts by simply 
stating that the federal role in our energy innovation pipeline 
should be strictly limited to support for so-called early-stage 
research without providing any clear definition for what that 
actually means.
    And then over and over again in this request you state that 
the private sector is better suited to carry out anything that 
you're proposing to cut or eliminate entirely. But if you don't 
have any process to engage with the private sector before 
proposing to cut energy efficiency programs by 84 percent and 
then you'll have to excuse me if I find it difficult to take 
your justification for this budget request seriously.
    Now, to be clear, I'm not saying that every program the 
Department currently implements is perfect. We should continue 
to identify small reforms and debate our priorities. We must be 
thoughtful investors of taxpayers' dollars. But I'm confident 
that investing robustly in our national laboratories and early 
and appropriately reviewed later-stage R&D is the right 
decision.
    With that, I'd like to thank you again for being here, and 
I look forward to a productive discussion this morning.
    I yield back, Mr. Chairman.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Smith. Thank you, Ms. Johnson.
    And I'll introduce our only expert witness today, who is 
Rick Perry, the 14th Secretary of the United States Department 
of Energy. Secretary Perry attended Texas A&M University, where 
he was a member of the Corps of Cadets and one of A&M's five 
Yell Leaders. After graduation, he was commissioned and served 
in the United States Air Force. He flew C-130 tactical airlifts 
in Europe and the Middle East until 1977 when he retired with 
the rank of Captain and returned to Texas to enter the cotton 
farming business with his father.
    Secretary Perry served in the Texas House of 
Representatives and then as Texas Commissioner of Agriculture. 
He was elected Lieutenant Governor of Texas in 1998 and assumed 
the governorship in December 2000 when then-Governor George 
Bush resigned to become President of the United States.
    In 2002, he was elected the 47th Governor of the Lone Star 
State. As the longest-serving Governor in Texas history, 
Secretary Perry oversaw the world's 12th-largest economy from 
2000 to 2015. Under his leadership, Texas set the pace for job 
creation, innovation, and population growth. During his tenure, 
Texas improved air quality while reducing emissions and carbon 
dioxide, sulfur dioxide, and nitrogen oxide.
    Besides guiding the Department of Energy, Secretary Perry 
also manages the 17 national laboratories, home to the 
country's best scientists and engineers.
    I've had the privilege of working with Secretary Perry for 
over 30 years and very much appreciate his testifying before 
the Science Committee today. We look forward to his insights on 
the future of American energy and innovation.
    Governor, welcome. We look forward to your comments.

                 TESTIMONY OF HON. RICK PERRY,

                SECRETARY, DEPARTMENT OF ENERGY

    Secretary Perry. Thank you, Mr. Chairman.
    Ranking Member Johnson, it's a privilege to be in front of 
you again. She's been mentoring me for nearly 30 years, so it's 
good to be back with you and an honor to appear before all of 
you today to discuss the President's 2019 budget request for 
the Department of Energy.
    And, as an aside, let me just say I really appreciate your 
understanding and your flexibility, the Cabinet meeting that's 
been called, and so in respect to your time and for us to be as 
productive as we can, I'll try to keep my remarks and my 
answers as brief as I can to save us time.
    This fiscal year 2019 $30.6 billion budget request will 
help the Department of Energy fulfill the key objectives that 
is accelerating exascale computing, fostering and furthering 
our scientific and technological mission, modernizing our 
nuclear arsenal, addressing our Cold War environmental legacy, 
advancing energy production, and better protecting our 
infrastructure.
    I'd like to briefly highlight the outstanding work. Mr. 
Foster, you represent one of the 17 national labs, and we had 
the opportunity to go out to your area and look at one of them. 
And not a greater I think cheerleader do we have, supporter of 
Fermi and Argonne and the other 15 labs than you. These are 
incubators of innovation, and they are among America's greatest 
treasures.
    And I also want to highlight the DOE's supercomputing and 
other advanced technologies that are going to play a crucial 
role in confronting threats to our energy and national security 
infrastructure and to maintaining America's leadership in 
science and medicine.
    There is no more appropriate place for this kind of massive 
computing power than in America's lead science agency, and 
that's the Department of Energy. And we also must regain 
leadership in the broader area of STEM, science, technology, 
engineering, and math. Through our STEM Rising initiative and 
related activities, our Department is promoting STEM programs, 
collaborating with students and teachers at every level of 
education.
    We also have a duty to advance our entire--I should--excuse 
me, our energy security by pursuing American energy 
independence because we are innovating more. We're regulating 
less. We are producing more energy from more diverse sources 
more efficiently than anyone ever predicted a few short years 
ago. We're now the number one combined oil and gas producing 
country in the world. I mean, that's fascinating when you think 
15 years ago--Mr. Rohrabacher, I mean, this is a stunning 
development. Just last year, we became a net exporter of 
natural gas. Today, we are exporting LNG to 27 countries on 
five continents.
    And thanks to that same innovation and that same drive, we 
are producing more energy cleaner than ever before. In fact, 
from 2005 to 2017 our economy was growing, and we led the world 
in reducing carbon emissions, cutting them by 14 percent over 
that period of time. Clearly, we don't have to choose between 
growing our economy and protecting our environment, but to 
achieve more complete energy security, we must ensure our 
energy actually gets delivered without interruption. And so my 
greatest focus as Energy Secretary is to ensure the reliability 
and resilience of our energy grid.
    So this year, we've requested a funding increase to 
strengthen cybersecurity, cyber defenses. We're establishing a 
new office. It goes by the acronym of CESER, Office of 
Cybersecurity, Energy Security, and Emergency Response, CESER. 
In the end, it will be you, though, our elected 
representatives, who will decide how to best allocate the 
resources of our hardworking taxpayers. And I look forward to 
not only answering your questions but working with you, taking 
your advice as we go forward to make this agency even more 
efficient and better prepared for the future.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Perry follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Smith. Thank you, Mr. Secretary. And I'll 
recognize myself for questions.
    My first question is this, that the Department of Energy is 
known for its development of technology from hydraulic 
fracturing to supercomputing to better batteries for electric 
cars. And, Mr. Secretary, I'm just wondering how important you 
think it is for technologies to try to be used to meet the 
challenge, for example, of climate change.
    Secretary Perry. Yes, sir. Obviously, living in a world 
that has an environment that's pleasant, that's safe is 
important. We were able to do that in the State of Texas while 
I was the Governor. It's one of the things that I'm really 
proud of. I mentioned that. You mentioned it in your remarks as 
well during that 14-year period of time we drove down nitrogen 
oxide levels by over 60 percent, SOx by over 50 percent, carbon 
dioxide by almost 20 percent, while we grew more than any other 
state in the nation. We added seven million people to the 
population roles of the State of Texas during that period of 
time, and I tell people, I say you know that means. That's a 
lot of pickup trucks. So----
    Chairman Smith. That's true.
    Secretary Perry. And so that's nonpoint source pollution. 
You're--conventional wisdom was, well, you're growing a lot of 
vehicles on the road. You got all that petrochemical stuff 
going on down there, ozone, and so you've got to be playing 
heck with your environment, but we didn't. And we didn't 
because we put thoughtful processes and we used technology and 
we allowed technology, and that's where the national labs are 
going to continue to play a very important role to make sure 
that our, you know--not only is it about job creation but it's 
about addressing issues that are important like our--the 
environment that we live in and making sure that the 
emissions--you know, CCU down in Houston where we built now the 
biggest, largest--I think at this time still--carbon capture 
utilization plant in the world. We're sequestering I think over 
95 percent--or not sequestering, we're capturing over 95 
percent of the carbon and then shipping it over using it for 
secondary recovery.
    These are the types of science that come out of the 
national labs that we can implement and see the type of results 
that I think you and the Members of this Committee are looking 
for.
    Chairman Smith. Thank you. Mr. Secretary, also the 
Department is known for its development and research into 
fusion energy, which might well be the solution to a lot of our 
energy needs in the future. There's an international effort 
called ITER, which may or may not be receiving the funding that 
they would like. And I'm just wondering how important you think 
that ITER effort is and how important it is that the Department 
of Energy continue to fund the development of fusion energy.
    Secretary Perry. Yes. Mr. Chairman, I think fusion has the 
potential to really change the world, so taking that position 
but also looking at--from time to time, one of the things that 
I ran into over the last 18 months, as I became intimately 
knowledgeable about what the Department of Energy does, from 
time to time, we get involved with some areas where the 
expenditures are off the charts, and, you know, I'm not going 
to sit here and try to micro-analyze this and say it's all been 
because of bad management or what have you, but I mean the 
billions of dollars that we spend on the MOX facility out in 
South Carolina and some of our environmental management 
cleanups, I mean, there have been some, you know, I think 
questionable--historically questionable expenditures of 
dollars. ITER is one of those. And it was poorly managed. I 
mean, I don't think anybody argues that there was some 
management decisions made at that big consortium that's over in 
France.
    Now, with all of that said, I think the previous 
Administration and this Administration both stepped back from 
that and said wait a minute, let's take a look at this and make 
sure that the dollars that we're going to be expending there, 
we're getting a good return on our investment. And that's 
exactly what we're doing, Mr. Chairman. We think that this--and 
they have new management. I've sat down with Mr. Bigot and 
we've discussed and I'm getting comfortable that the management 
of ITER is indeed back on track. They're headed in the right 
direction.
    Chairman Smith. Okay.
    Secretary Perry. So, you know, I'm--one of the things I 
learned as an appropriator back in--as a boy in Texas and as 
the Governor was that I know how the appropriations process 
works, and I respect it greatly.
    Chairman Smith. Okay.
    Secretary Perry. And it's the Members of this Committee and 
the appropriators that are going to decide about, you know--
they expect me to be a good manager, and that's what I'm going 
to tell you is I'm going to be as transparent and hardworking 
person to earn your trust from a management standpoint.
    Chairman Smith. Okay.
    Secretary Perry. And if you see fit that--I'm going to try 
to give you the best information I can, but you see fit that 
projects like ITER need to be funded, we will give good 
oversight and we will make them be as transparent as we can and 
try to get us the results----
    Chairman Smith. Okay.
    Secretary Perry. --that this committee wants.
    Chairman Smith. Mr. Secretary, thank you. My time is 
expired.
    The gentlewoman from Texas, the Ranking Member Ms. Johnson, 
is recognized for her questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Mr. Secretary, I think that--I appreciate your statement 
and agree with what you've said about the progress in Texas. We 
started from a very low ebb and we've gone a long ways, but we 
have a long, long ways to go.
    Secretary Perry. Yes, ma'am.
    Ms. Johnson. I guess my focus will be on the budget because 
I think I heard you say that it's really up to this committee 
to make those budget authorization decisions, but we do have a 
budget before us that came over that does not necessarily I 
think reflect some of the things that you have spoken about, 
but you also said you would take on most what we give you and 
to do the best you can to manage it.
    But how can you agree for the 70 percent cuts to the energy 
efficiency and renewable energy and support these cuts? Where 
do you say--did you have input on this or what is your opinion 
on what we are facing as your budget before us, getting rid of 
ARPA-E and all that? Did you have any input on that, and where 
do you stand?
    Secretary Perry. Ms. Johnson, one of the things that I 
think is important to understand on the global look at the EERE 
and energy efficiency and that side of the house, it's 
important for us to recognize that some of the dollars that 
were expended over, let's say, the last decade were in those 
early-stage dollars--appropriately from my perspective I might 
add--in some of the renewables, solar and wind.
    As those have matured--it's kind of like when I sent my 
kids off to college, that was a costly process. And then they 
graduated and went on and went to work and I didn't expend 
those dollars because they had basically matured. Some of the 
things that you've seen in that side of this budget, that's the 
reason that it's occurred and you've seen the reduction in 
spending because those have made maturations.
    And I don't think it's any indication at all that there's a 
lack of support for our renewables at the Department. I mean, 
you know this, having lived in Dallas in Texas, no State 
developed more wind energy in the nation while I was the 
Governor than Texas. Matter of fact, we created more wind than 
all but five countries. So the commitment to the renewables is 
still there. I think as we--I don't like to use the term ebb 
and flow, but as we transition away from forms of energy that 
are maturing into others, you'll see these changes in the 
budget.
    Now, with that said, I think, you know, we can always 
disagree that the total amount of money is the right amount of 
money. That--again, I respect this process greatly. You and I 
might not agree upon a total dollar amount in a particular line 
item.
    Ms. Johnson. Thank you. My time is expired.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Oklahoma, Mr. Lucas, is recognized.
    Mr. Lucas. Thank you, Mr. Chairman.
    And I do note the observation of the number of, you know, 
Texans on important leadership positions on this committee. And 
of course the Secretary, having been the Governor, we in 
Oklahoma sometimes are viewed as the buffer zone or the 
catalyst or whatever, but you can always tell a good Texan. If 
you refer to it as the Republic of Texas, they invariably 
smile, so you know they're a real Texan.
    That said, Mr. Secretary, I was pleased to see in the 
fiscal year 2019 budget a refocus on the biological and 
environmental research programs on genomic science, 
particularly the funding included for four recently renewed 
bioenergy research centers. These centers provide fundamental 
science for better understanding of plant and micro biosystems, 
allowing DOE researchers to work with industry to create the 
next generation of transformative bioenergy resources and bio-
based products. Can you update the Committee on the research 
goals for the bio research centers?
    Secretary Perry. Yes, sir. And, Mr. Chairman, if I may, I'd 
like to introduce Paul Dabbar. He's our Assistant Secretary for 
Science----
    Chairman Smith. Okay.
    Secretary Perry. --and his shop, that's where that is. And, 
Mr. Lucas, if I may----
    Mr. Lucas. Please.
    Secretary Perry. --and just to remind you, we were a 
Republic once.
    Mr. Lucas. Never a doubt in my mind.
    Secretary Perry. So, Paul Dabbar.
    Mr. Dabbar. And as an Oklahoman, as the wing man here to 
the Air Force officer, I thank you for this question.
    The bioenergy area in the area of BER is very important. 
And actually, we're focusing more resources on that. There's a 
few areas that we find particularly interesting. As you know, 
the DOE labs were at the forefront, along with NIH, in terms of 
gene editing, gene sequencing. A lot of people don't know that. 
And, as a result, we have a lot of history and a lot of future 
ahead of us.
    The first area that we're working on is in the area of 
precision medicine. This is tailoring specific therapeutic 
treatments to the individual genomics for a particular person. 
This is a very exciting area in the area of biotech and the 
genomics area for the Department that we work on with other 
universities and the National Institutes of Health, which could 
have a monumental shift in where health goes in this country.
    Secondly, we continue to do a lot of work in the area of 
bioenergy, looking at different types of plants that can be 
used in a more efficient manner, more efficient on the land, 
more efficient with water to look at applications associated 
with that.
    Thirdly, we do a lot also in another area of plant 
genomics, which could be used for biotech drug manufacturing. 
Taking various genomic sequences that certain plants have and 
being able to use those to engineer a manufacturing of biotech 
drugs outside of having to have to grow the individual plants, 
it's a very important area that Lawrence Berkeley in particular 
but a number of other of our labs that are leadership in, and 
so we're very excited about those opportunities.
    Mr. Lucas. Governor, just one final thought here in the 
time that I have remaining just from a geographical reference. 
I'm fond of the Republic of Texas. I live 50 miles down the 
river from Canadians, so you know my geographic location.
    Secretary Perry. I know exactly where you are.
    Mr. Lucas. And with that, I would like to just reinforce 
comments made by my colleagues about the importance I think of 
ARPA-E----
    Secretary Perry. Yes, sir.
    Mr. Lucas. --how that leverages your technology abilities 
within the agency, with private industry, and the potential to 
do great things I think exists in ARPA-E.
    Mr. Lucas. And with that, Mr. Chairman, I'll yield back.
    Chairman Smith. Thank you, Mr. Lucas.
    And the gentleman from California, Mr. Bera, is recognized.
    Mr. Bera. You caught me off-guard there.
    You know, thank you for appearing here, Mr. Secretary. You 
know, I know we're in conversations with Saudi Arabia right now 
about their pursuit of nuclear energy and nuclear reactors. You 
know, obviously this would be a big deal. They're planning on 
spending about $80 billion to build 16 nuclear reactors over 
the next 25 years. And, you know, there obviously is some 
concern as we're negotiating the 123 agreement. The Obama 
Administration was never able to quite get that agreement 
completed because of concern over the Saudis potentially using 
those reactors for nuclear enrichment. You know, if you could 
give us an update on how those negotiations are going.
    You know, in a recent 60 Minutes interview, the Saudi Crown 
Prince suggested that if Iran were to pursue nuclear weapons, 
they certainly would be within their rights to pursue nuclear 
weapons as well. And with yesterday's pulling out of the Iran 
nuclear deal, certainly there's the potential of that deal 
collapsing and the Iranians going back to their pursuit of 
nuclear ambitions. There's real concern in a bipartisan way in 
this body, in a bicameral way, that we may enter into a 123 
agreement that actually does allow the Saudis to pursue nuclear 
enrichment, and I'd be curious to get your perspective on that.
    Secretary Perry. Yes, Mr. Bera, absolutely. And I think I 
share--along with I would suggest every one of the people on 
this committee--your concerns about an increase in 
proliferation of nuclear materials in the world. And that goes 
right to the point that we've tried to make with the Saudi 
Crown Prince in our conversations with him and with his team 
that not only will it send a powerful message if they go into 
an acceptable 123 with additional protocols but that we--that 
they do that because if they don't, the message that's sent--if 
the Chinese or the Russians, which don't require any of that, 
not only does it send the message--I think the wrong message by 
the Kingdom of Saudi Arabia but it also sends the message to 
the United States that we're no longer the leader in the world 
when it comes to civil nuclear power.
    Westinghouse, best reactor builder in the world----
    Mr. Bera. Right.
    Secretary Perry. --you know, they've had their challenges 
from a business standpoint, but it wasn't because they're not 
really good at building reactors. It's because they got 
involved in the construction side of it, which is not their 
expertise. That's been straightened out. They have been, you 
know, working their way, but the reactor side of this is very 
important, and that is the second point that we tried to really 
drive home to the Crown Prince was that if you want the best 
reactors in the world, you have to come to the United States 
and you have to use Westinghouse.
    So you have to be seen, you know, what the Kingdom is going 
to decide when it comes to who's going to be allowed to build 
those, but I think for us as Americans, for us that truly 
believe in nonproliferation, that that is a powerful place for 
us to be and the goal that we need to go into every 
arrangement, that if the Kingdom of Saudi Arabia does not sign 
a 123 with us with additional protocols, the message will be 
clear to the rest of the world that the Kingdom is not as 
concerned about being leaders when it comes to this issue, and 
they'll be losing a great opportunity to stand up and say the 
Kingdom of Saudi Arabia is a serious country when it comes to 
nonproliferation and to the development of nuclear power in the 
Middle East.
    Mr. Bera. Great. Well, know that you've got bipartisan 
support----
    Secretary Perry. Yes, sir. Thank you.
    Mr. Bera. --with that 123 agreement.
    Chairman Smith. Okay. Thank you, Mr. Bera.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And, Mr. Secretary, you have every right to be proud that 
America is now energy-independent. This didn't just happen. The 
fact is is that there have been political elements and 
disagreements that perhaps would have stopped fracking in its 
place, which is the new system that's given us so much energy 
and given us natural gas, which has permitted that level of 
CO<INF>2</INF> to go down, as you mentioned.
    Let me just note that, as you take over your new 
responsibilities here, one of the most important 
responsibilities is to say no when things are bad, don't 
really--aren't as good as other alternatives or more expensive. 
And I would hope that, as you get into your job, that you take 
that part of your job very seriously.
    Quite frankly, building any new nuclear power plants based 
on the current technology is I believe not only a waste but a 
danger to the American people and the people of the world. The 
old-style nuclear reactors, for example, the reactors you're 
talking about that you want to sell to Saudi Arabia, do they 
produce plutonium?
    Secretary Perry. Yes, sir.
    Mr. Rohrabacher. They do. Okay. Why should we--when we are 
capable--we have the capabilities now of building a new 
generation of nuclear power that will not have plutonium left 
over, that can't melt down, that in fact will use the nuclear 
waste from the current generation as fuel and eat it up rather 
than having to have it here threatening us, I would hope that 
you take a very close look at that.
    And instead of just giving your support to ongoing projects 
like ITER, which has not seen any progress towards giving us a 
real energy source but sure eats up a lot of money, and so I'd 
hope as you move forward in this job--and I know you take it 
seriously. I think Texans have a lot to be proud of what you 
did down in Texas. So I will refrain from talking about all the 
wind that Texas produces. We think--that's enough. I won't go 
down that road.
    But let me just ask you this, Mr. Secretary. Mr. Shimkus of 
Illinois has a piece of legislation aimed at trying to offer us 
at least moving forward with some kind of plan that will make 
it safer--right now, the nuclear energy that's being stored 
throughout the country, including San Onofre, California is 
enormously expensive----
    Secretary Perry. Yes, sir.
    Mr. Rohrabacher. --and I'm not sure that it's safe to have 
all the nuclear energy stored like that. Shimkus would reopen 
the Yucca Mountain debate. Do we have a position on that?
    Secretary Perry. Yes, sir. From the standpoint of there are 
38 States that have nuclear materials stored in less-than-
satisfactory places, one of them being San Onofre. And I've got 
great concern about San Onofre being in the circle of fire. 
It's exactly the same geological area that Fukushima was in.
    Mr. Rohrabacher. Right. Correct.
    Secretary Perry. And so the idea that you could have a 
major earthquake and with that a tragic event, that whole 
inland empire, you take that off of the economic--and it could 
be disastrous to our country----
    Mr. Rohrabacher. Let me invite you to San Onofre and we 
could go through that together.
    Secretary Perry. Yes, sir.
    Mr. Rohrabacher. You haven't been there?
    Secretary Perry. I've driven by it a number of times but 
have never been in it, so I----
    Mr. Rohrabacher. That would be a good thing to do. And I 
appreciate your leadership. And, again, leadership quite often 
means saying no----
    Secretary Perry. Yes, sir.
    Mr. Rohrabacher. --and that's the hardest part of a job 
here in Washington is saying no to people who want money.
    Secretary Perry. Yes, sir.
    Mr. Rohrabacher. Thank you.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentlewoman from Nevada, Ms. Rosen, is recognized.
    Ms. Rosen. Well, thank you, Mr. Chairman, Ranking Member, 
and Secretary Perry for being here today.
    I want to also talk a little bit about Yucca Mountain 
because, for decades, Nevadans have been fighting our State 
being a dumping ground for the nation's nuclear waste. Yucca 
Mountain is actually seismically active as well. But besides 
that, what I want to do is emphasize how Yucca Mountain is also 
a threat to our national security because the site is located 
on DOE's national security site, which, as you know, provides 
DOE and other government agencies unique high-hazard testing 
environments.
    Yucca Mountain is also adjacent to the Nevada Test and 
Training Range, which is the largest air and ground military 
training space in the contiguous United States, and it is home 
to 75 percent of all the stateside Air Force live munitions.
    So according to Air Force Secretary Heather Wilson, there 
is no transportation route--I repeat that--no transportation 
route across the NTTR that would not impact testing and 
training even around--outside the range's boundary that might 
create encroachment issues.
    So, Mr. Chairman, I ask unanimous consent to put--provide a 
map about Nevada sites into the record, please.
    Chairman Smith. Without objection, it'll be made a part of 
the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Rosen. Thank you.
    So, Mr. Perry, Secretary Perry, to your knowledge, has the 
DOE worked with the Department of Defense to address these 
concerns, the concerns of Air Force Secretary Heather Wilson on 
the Yucca Mountain project?
    Secretary Perry. Ms. Rosen, we are in pretty constant 
contact with our colleagues over at DOD in a host of different 
areas, that certainly be one of them. I think the important 
aspect of this issue from a DOE standpoint and the Secretary of 
Energy standpoint is that I have a requirement of law to take 
this licensing process forward. In this budget that we're 
talking about I think there's $120 million, 110 of which is on 
the licensing side and going forward with NERC to get an answer 
on the licensing side.
    So, you know, the debate about Yucca, whether it should be 
opened, it shouldn't be opened, it's been ongoing for a long 
time, I think $15 billion worth of time. But my responsibility 
here is not to tell you whether I'm for Yucca or against Yucca 
from the standpoint of it being a permanent facility. It's to 
follow the law, and the law says that DOE will go forward with 
the licensing side of it.
    Ms. Rosen. Might I suggest, Secretary Perry, that you work 
in collaboration with our Department of Defense to secure our 
Nevada Test and Training Range and secure our live munitions.
    And I'd like to reiterate what happens on the Nevada test 
site as far as testing of hazardous material, Yucca Mountain 
sits right there. It's also 60 miles from rare earth mines in 
California and not too much further on from the San Andreas 
Fault. So we need to talk about those things. You can't exist 
in a vacuum. I would urge you to work with the Department of 
Defense on discussing these highly important issues of national 
security.
    Secretary Perry. We'll continue to do that with the DOD.
    Ms. Rosen. Thank you. I yield back.
    Chairman Smith. Thank you, Ms. Rosen.
    The gentleman from Illinois, Mr. Hultgren, is recognized 
for questions.
    Mr. Hultgren. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, grateful for your work and the 
team that you've put together. I want to commend you for the 
work you've been doing at DOE, and I keep hearing nothing but 
good things when I'm out talking to people back home in 
Illinois at Fermilab and Argonne, grateful again for your visit 
and Mr. Dabbar's visit. I had a great time with him there 
touring and also excited that a group of the Committee are 
going to be going to visit Argonne and Fermi this weekend, so 
important for us to recognize the incredible value, the 
treasure that we have with our national labs and how important 
of a piece they are in this ecosystem of science, and so thank 
you.
    I'm also going to continue to work in a bipartisan fashion. 
We've got a National Labs Caucus here in the House to keep 
telling the story of the great work that's happening throughout 
our lab system, and grateful again for your commitment and 
support there.
    I've heard discussions about the National Science and 
Technology Council establishing a Science Infrastructure 
Subcommittee. This is something this committee has worked on 
with a number of bills, including my legislation to authorize 
construction of the Long-Baseline Neutrino Facility, as well as 
upgrades to APS at Argonne and the Spallation Neutron Source at 
Oak Ridge. What are the current plans of this subcommittee? 
What are its goals, and will DOE and Office of Science have a 
prominent role? I believe our DOE user facilities are truly the 
crown jewel of our research ecosystem, and I hope we continue 
to work with you to see these facilities and researchers 
supported.
    Secretary Perry. Mr. Chairman, for the best edification of 
the Committee, I'd like to ask Paul again. This is right in his 
shop, and again----
    Mr. Hultgren. That's perfect.
    Secretary Perry. --he can succinctly address this.
    Mr. Hultgren. Great. Thanks.
    Mr. Dabbar. Congressman, thank you, and I look forward to 
seeing you and many other Members here at Argonne on Friday.
    I sit as a Co-Chair with Under Secretary Copan from NIST 
from Commerce on that particular committee that you asked 
about. We are--we have a number of subcommittees on different 
sorts of research and not just energy but many other things 
across the whole of the federal government in terms of the 
infrastructure, much of which is based on labs, much of which 
also has topics around lab-to-market topics that obviously both 
us and Under Secretary Copan are part of. And so there's a 
number of different committees. I co-chair that, and items such 
as infrastructure buildout and national labs such as at Fermi 
and Argonne are an important part.
    Mr. Hultgren. Great. Thanks, Mr. Dabbar.
    Mr. Secretary, I commend your work at the Department trying 
to find ways to get bureaucratic barriers out of the way so 
that the private sector can be nimble bringing new ideas to the 
market. This House has passed legislation a number of times 
that would give lab directors the signature authority for 
technology transfer agreements and other cooperative research 
projects under $1 million. I had a brief discussion with the 
Under Secretary Dabbar about this provision, and I believe it 
to be in line with the Administration's goals and in the 
Department. I wonder, would this provision concern you, and is 
this something we can work with you in trying to move forward 
on?
    Secretary Perry. No, sir, it does not concern me.
    Mr. Hultgren. Great. Again, thank you. We want to work with 
you. We're grateful for your commitment to all of the work in 
the Energy Department but I especially have a great passion for 
our labs and want to thank you for your commitment there as 
well.
    With that, I'll yield back the balance of my time.
    Secretary Perry. We share that passion, sir.
    Mr. Hultgren. Thank you. Thank you, Secretary.
    Chairman Smith. Thank you, Mr. Hultgren.
    And the gentleman from Pennsylvania, Mr. Lamb, is 
recognized.
    Mr. Lamb. Good morning, Mr. Secretary. I was encouraged to 
hear you say in the opening that your greatest concern is the 
reliability and resiliency of the electrical grid. And I am 
very concerned about the challenges that the nuclear plants in 
my State of Pennsylvania now face. We have thousands of 
hardworking men and women who work at these plants every day, 
and they work hard to ensure that we have the reliable source 
of energy, the carbon-free source of energy provided by these 
nuclear plants.
    You also noted the concerns of cyber attacks and cyber 
threats to the grid, and I know that some of these nuclear 
plants like Beaver Valley, which is close to where I live, are 
almost completely independent of the internet. I mean, the 
control room is amazing. It's a large analog operation that 
would be resilient and reliable in the event of a cyber attack 
on the rest of our grid.
    So I know that your agency is considering the 202(c) 
request from FirstEnergy related to baseload capacity. I'm not 
going to ask you to weigh in on that this morning. I saw your 
comments that 202(c) may not be the way we decide is the most 
appropriate or the most efficient way to address this, and you 
seem to believe that there are other options for the nuclear 
plants especially besides 202(c). So I was hoping you could 
fill us in. What do you see as other options on this issue?
    Secretary Perry. Well, I'm looking for a solution. I'm 
looking for results. I'm--you know, the process kind of wears 
me out from time to time. And my point is the 202(c) is an 
economic issue. I mean, that's approaching this from an 
economic standpoint. And I think it's really important for us 
as a country to look at this for what you and I think--
understand it to really be about, and it's about the national 
security of our country, of keeping our plants--all of them--
online, being able to deliver energy no matter whether it's a 
natural disaster that we might see from a polar vortex or it's 
something more nefarious as a cyber attack from a terrorist 
state or some entity with bad intent for the United States. So 
we're looking at a number of ways to approach this. I know that 
the Defense Production Act is one of those ways to address 
that, that we're looking at very closely as well.
    So having resiliency and reliability in our grid is as 
important to our national security as anything that I can think 
of. And making sure that the plants that we have today 
supported reliably with the fuel, and obviously nuclear is one 
of those, and there are coal plants out there that fit into 
that.
    I might just make the statement of fact that by 2040 the 
world will still be relying upon 77 percent of fossil fuels of 
driving that energy that's being produced.
    Mr. Lamb. And I've seen that as well, Mr. Secretary, so I 
just want you to know that you have a partner here in trying to 
find other solutions on this issue. I will be happy to help in 
any way, and my staff will certainly reach out.
    Along that line, we have seen States pass some legislation 
to try to address this issue and to try to correct some of the 
market failures, especially for nuclear plants. Do you support 
the efforts of States like New Jersey and Illinois and New York 
that have taken on this issue and tried to develop their own 
solutions to correct some of these failures?
    Secretary Perry. Yes, well, I wrote a book about the Tenth 
Amendment, so I--it would be pretty hard-pressed for me not to 
say that I don't believe that States have a very important 
role.
    I think there is another issue that's a side issue but 
directly to this. Do States have the right to block a pipeline 
across their State that will have a national security 
implication or an economic implication on individuals? And 
that's a whole other issue, but it's one I hope you and I can 
continue to have a conversation on. That--the fight there will 
be the State's sovereign ability to make a decision versus the 
national security of this country.
    Mr. Lamb. Thank you.
    Secretary Perry. Yes, sir.
    Chairman Smith. Thank you, Mr. Lamb.
    The gentleman from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you.
    Welcome, Mr. Secretary.
    Secretary Perry. Thank you. Howdy.
    Mr. Weber. It's great to see you.
    Secretary Perry. Yes, sir. Thank you.
    Mr. Weber. We didn't tell these other States that Texas has 
our own grid primarily.
    Secretary Perry. They probably already know that.
    Mr. Weber. Yes, I'm just saying.
    The gentleman from California, Mr. Rohrabacher, will be----
    Secretary Perry. And we'd like to keep it that way.
    Mr. Weber. Well, amen. Let's talk about the Tenth 
Amendment. And your book is on sale, right, about the Tenth 
Amendment?
    Secretary Perry. Very much on sale.
    Mr. Weber. I'm just saying.
    I'm pleased to see the funding requested in the fiscal year 
2019 budget includes request for what's in my bill, a versatile 
neutron source--Dana, you'll like this--the next round of 
nuclear reactors. My act is called the Nuclear Energy 
Innovation Capabilities Act. It's clear that we need progress 
on this facility. This is where we can build the next round of 
reactors to move more quickly if we're going to meet the needs 
of the advanced reactor community.
    So, Secretary Perry, I guess I don't know how much you've 
looked at that bill that we've got coming down the line. You 
know we're getting outstripped by Russia in nuclear innovation, 
and that's totally unacceptable. That's totally unacceptable. 
So I'd like for you to think about it, commit if you would to 
the funding of the versatile test reactor, and make that a top 
priority in energy R&D. It looks like maybe Mr. Dabbar----
    Secretary Perry. Yes.
    Mr. Weber. --has got some experience on that or no?
    Secretary Perry. Paul, you want to just--he pitched you a 
soft one.
    Mr. Dabbar. I--yes. Yes, sir, having run a reactor in my 
younger days. This is an important area. We've asked for $148 
million as part of the 2019 budget request around advanced 
reactors, in addition, SMR reactors as another area that we're 
very much focused on. So this is an area that is important, and 
I'd also like to point out for Congressman Beyer in Virginia, 
we just also--that big CEBAF nuclear physics facility that we 
just inaugurated this last week that had a ribbon-cutting on 
shows another area of leadership in the nuclear area that we do 
for the country.
    Secretary Perry. Yes, Mr. Weber, I think it's--and this is 
exactly down the line that Mr. Rohrabacher was making reference 
to from the standpoint of the old way of building civil nuclear 
reactors, it would be like kind of the old way they built cars. 
I mean, the technology has changed, and we need to take 
advantage of the technology. We need to be a part of the 
technology.
    We need to be--and I might--let me just finish it by saying 
the work that we're doing at Idaho National Lab is right along 
this line with the advanced reactors, and the funding of the 
national labs directly affects your point here.
    Mr. Weber. Sure.
    Secretary Perry. And INL is one of the lead labs that's 
dealing with advanced nuclear reactors.
    Mr. Weber. Right. And back to Mr. Rohrabacher's point, 
we're going to need an advanced fuel, so there's going to have 
to be R&D on fuel for this advanced reactor, which part of the 
discussion has been. We can take some of that old fuel, whether 
it's military grade or whatever kind of fuel it is. We can 
actually investigate and do the research on how to use that 
fuel in some of these advanced reactors and maybe do away with 
some of the storage. As you know, South Texas Nuclear Project 
when I was a State Rep is--was in my district, and we watched 
them change fuel rods, so it's very, very important. You 
mentioned the 38 States I think that stored onsite. That's just 
not sustainable. So we would also ask you all to commit to not 
only the advanced nuclear reactors in the versatile neutron 
source but also to research on the fuel for that next round. 
Are you all able to do that?
    Secretary Perry. Yes. Well, we have some work going on now 
with the high-assay----
    Mr. Weber. Right.
    Secretary Perry. --low-enriched uranium that I think fits 
the description of what you're talking about right there.
    Mr. Weber. Sure. Well, I appreciate that. And, Mr. Dabbar, 
you're going to be with us at the labs this weekend, I believe.
    Mr. Dabbar. Yes, sir. I look forward to being there with 
you.
    Mr. Weber. Okay. Well, bring the Secretary with you. I'm 
just saying, but thank you, Mr. Secretary.
    Mr. Chairman, I yield back.
    Chairman Smith. Okay. Thank you, Mr. Weber.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized 
for questions.
    Ms. Bonamici. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here.
    Our nation has some of the best scientists, researchers, 
programmers, and engineers in the world, but without strong 
investments in research and development, we fall behind. We 
risk falling behind our international competitors. This 
proposed budget takes us in the wrong direction, and I want to 
align myself with my colleagues who have objected to 
eliminating ARPA-E.
    And I'm glad to see that the Administration is supporting 
increased advanced scientific computing research, but foreign 
governments like China are much more aggressive with their 
investment in exascale computing. We're falling behind there. 
This could have serious implications for our U.S. leadership 
for national security, economic competitiveness, and 
innovation.
    I'm disappointed to see that the Department of Energy's 
budget proposal would make significant cuts to the development 
of clean energy technologies, including water power. In my 
State of Oregon, Oregon State University is a global leader in 
marine renewable energy research and development. The Pacific 
Marine Energy Center relies on federal investment from the 
Office of Energy Efficiency and Renewable Energy to establish 
the nation's fully energetic on-grid wave energy test facility 
off the Oregon coast. This facility will be able to test wave 
energy converting--converters that harness energy of ocean 
waves and currents and turn it into electricity. Hydropower has 
been--has tremendous potential to become a major source of 
electricity for the United States and the world, and other 
countries are ahead of us here.
    Mr. Secretary, your budget proposal cuts funding for 
hydropower research and development by more than 57 percent, so 
do you agree that this country should be reducing our 
dependence on fossil fuels, and if so, why is the Department 
pursuing such severe cuts for federal energy research 
investment?
    Secretary Perry. Yes, ma'am. Let me just say in a global 
way we do support the renewables. You know, we can argue about 
the level of funding, which is what the appropriations process 
is all about, but we are continuing to fund the program. And I 
think it's--is it Oregon State? I'm----
    Ms. Bonamici. Oregon State University has the facility.
    Secretary Perry. Yes, ma'am. Yes. That's what I was 
thinking. It is Oregon State that is--and we're still funding 
that, so the support is still there certainly. You know, the--
again, the level of funding we can discuss, but----
    Ms. Bonamici. Well, Mr. Secretary, with a 57 percent cut, 
that's serious, and as someone whose responsibility it is to 
advise the President, I hope that you will advise the President 
that this is a good investment to invest in renewable energy.
    And also, Mr. Secretary, I was glad to see you mention the 
importance of the labs. The National Energy Technology 
Laboratory is in Albany, Oregon, and they're working to make 
our energy systems more efficient. They're developing new 
sensors and controls for power plants in our grid, designing 
materials that can be used in extreme high-temperature 
environments, and advancing carbon capture technologies to 
reduce emissions. These efforts should be a model for the 
energy industry nationwide, but the fiscal year budget 
justification discussed a phased approach to consolidate the 
NETL location. What is the status? It's unclear from your 
proposal. Does the Department intend to close the NETL Albany 
location, and could you please provide us with an update on the 
possible consolidation of the NETL sites?
    Secretary Perry. So to answer your question directly, there 
are no NETL reorganization plans being discussed that would 
result in the closure of your facility out in Albany, Oregon. 
They are still continuing to focus on advanced power 
applications and material performance research, geospatial data 
analysis, so in a nutshell, no.
    Ms. Bonamici. I appreciate that. Thank you.
    Secretary Perry. Yes, ma'am.
    Ms. Bonamici. I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    And the gentleman from Florida, Mr. Posey, is recognized.
    Mr. Posey. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here today.
    Based on the testimonies that we've heard in committee, I'm 
concerned about the uncertainty and the way we assess the 
greenhouse gas emissions associated with blending ethanol in 
our fuel supplies. As you know, being accurate in these 
estimates depends on integrating the lifecycle effects of land-
use changes in the growing of corn and other feedstocks for 
ethanol production. We should add these emission impacts into 
the estimate to get a full and accurate picture.
    Looking at the full lifecycle, some scientists contend that 
the greenhouse gas implications of land-use changes outweigh 
any savings in burning ethanol compared to fossil fuels. A 
University of Michigan study was particularly enlightening 
about the lifecycle aspects of ethanol, and I ask, Mr. 
Chairman, unanimous consent to enter into the record a study 
conducted by Professor John DeCicco.
    Chairman Smith. Without objection, that will be made a part 
of the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Posey. Thank you, Mr. Chairman.
    According to his study, despite the purported advantages of 
biofuels created from crops such as corn, soybeans cause more 
emissions of climate-change-causing carbon dioxide than 
gasoline. The study further remarks that carbon neutrality has 
really been an assumption. To verify the extent to which the 
assumption is true, you really need to analyze what's going on 
in the farmland, where the biofuels are being grown. People 
haven't done this in the past, and they felt like they didn't 
need to.
    It's truly puzzling to me that we aren't looking at the 
full lifecycle of biofuels production. With gasoline, we take 
into account not just the tailpipe emissions but carbon 
emissions during the drilling, the transportation, the 
refueling, and other parts of the process.
    Now, Mr. Secretary, I'm working on legislation to authorize 
the Department of Energy to conduct research and development 
necessary to refine our models to better estimate the overall 
impact of ethanol fuels on greenhouse gas emissions. I believe 
it's essential that we have an accurate estimate of these 
impacts to develop policymaking on such fuels. Ethanol is a 
very pure poor fuel product substitute, and mandating its use 
has serious implications for food supplies and prices. Will you 
pledge to work with me on legislation to improve the basic 
tools necessary for assessing the lifecycles and emissions of 
ethanol?
    Secretary Perry. Yes, sir.
    Mr. Posey. Thank you. I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Posey.
    And the gentleman from Illinois, Mr. Foster, is recognized.
    Mr. Foster. Well, thank you.
    And, Secretary Perry, I have to say how much I really 
enjoyed the day that we spent together visiting the two 
national labs that, you know, one of which I worked at for many 
years, another one which I currently represent. And, you know, 
I just want to say that your enthusiasm for the fundamental 
science has really shown through on that visit. You know, it's 
a--you know, the Department of Energy has done well with, you 
know, technical wizards running it and also with people with 
more political backgrounds who really understand and appreciate 
what it does. And I just want to say how much, you know, I 
appreciate that, as well as of course your specific enthusiasms 
for the upgrades at Argonne and at Fermilab, which have already 
been mentioned here.
    Also, you know, when I look over, you know, the subject of 
this and the budget, you know, we've had some sort of off-the-
record discussions there, and you mentioned in your opening 
remarks the return on investment, which I think is the right 
phrase for this. And so when you look at programs like the EERE 
investments where third-party independent estimates have said 
that between--the investments between 1976 and 2008 of about 
$15 billion generated economic benefits to the United States of 
about $388 billion. And that's a return on investment of 24 to 
1, an enormous number, and you'd be hard-pressed to find any 
industrial sector with a comparable return on investment. And, 
you know, you definitely get that.
    And, you know, on the other hand if you look at this--at 
the budget proposal, you're going to--you know, there are 
things like the Loan Program Office of the Advanced Tech 
Vehicle Manufacturing program. These are things that have 
turned a profit for the taxpayer in the sense of returned money 
to the taxpayer. So technically, the return on investment there 
is more than infinite. And yet when you see these things 
proposed to be zeroed out, you know, how do you react in the 
internal debates on that, and how do you go forward when you, 
I'm confident, advocate for this sort of program and then see 
the final proposal----
    Secretary Perry. Yes, sir.
    Mr. Foster. --being cut?
    Secretary Perry. Mr. Foster, as you said, you and I have 
had some relatively lengthy conversations about this specific 
area of the budget. As--I try to remind people that, again, I 
really respect this process. I grew up in it having been an 
appropriator, having been an agency head, having been the chief 
executive of a State that was fairly successful. We actually 
created a program back in Texas called the Emerging Technology 
Fund that we oversaw, and I argued vehemently to some of my own 
colleagues on my political party that didn't think government 
needed to be picking winners and losers, and I shared with them 
that we pick winners and losers every day.
    Mr. Foster. Yes, but----
    Secretary Perry. But my----
    Mr. Foster. --I just--I really appreciate--you know, you 
actually get this issue in-depth, and I just really appreciate 
that. So keep fighting, and I wish you better luck in future 
debates here.
    Now to change the subject, your predecessor, one of the 
really great things he did with the scientific expertise of the 
national lab was to--and really engaged that expertise in the 
Iran nuclear negotiations, that he was providing real-time 
input to the negotiating team and to those of our allies on the 
detailed technical questions that are an essential part of 
this. So could you describe the extent to which the--that 
technical and scientific expertise at the national labs, both 
the science labs and the weapons labs have been engaged in the 
latest strategic decisions by the White House?
    Secretary Perry. Yes. And it's a lot broader. I know news 
of the day is the Iranian deal, the JCPOA, but the point is the 
Department of Energy is the agency of which the verification of 
nuclear materials and nuclear activities around the world, 
whether it's North Korea, whether it's Iran, our agency is 
where the expertise lies. National labs obviously play a very 
important role with that but also in the NNSA side of our house 
as well. So I'm not sure there is an agency of government with 
more expertise, with the----
    Mr. Foster. So my question is why have seen very little 
evidence of that expertise being engaged or can you give 
specific examples where it has been in these latest decisions?
    Secretary Perry. Yes, sir, I can but I'm not sure that some 
of it we can talk about in this room.
    Mr. Foster. Thank you. I appreciate that.
    Secretary Perry. Yes, sir. But I'll be more than happy to 
come and sit down with you in a classified environment and 
share with you I think the questions that you place forward.
    Mr. Foster. Thank you.
    Secretary Perry. Yes, sir.
    Mr. Foster. I yield back.
    Chairman Smith. Thank you, Mr. Foster.
    The gentleman from Texas, Mr. Babin, is recognized for 
questions.
    Mr. Babin. Yes, sir, thank you, Mr. Chairman, and thank 
you, Mr. Secretary, for being here, my favorite Governor. Glad 
to have you here.
    Secretary Perry. Thank you.
    Mr. Babin. I appreciate your long years of service to our 
Lone Star State.
    I would like to have a graph put up, please, from 2010 from 
the U.S. Energy Information Administration.
    [Slide.]
    Mr. Babin. Let me make a note here. The graph all the way 
to the right, these are subsidies for unit of production per 
megawatt hour all the way to the right. That is not to scale. 
You can see for solar power the American taxpayers were 
subsidizing solar energy per megawatt hour at a rate--if that 
graph was to scale, we would have to be in about a three-story 
building. That's how high and how large the amount of subsidies 
that we are giving solar energy. You can see that wind is the 
next one. It is to scale. And then a few years later in 2013 
solar is still way up there above everything else. It's 
declining but still unacceptably high as far as I'm concerned. 
This is probably the result of the Obama stimulus that was done 
at that point in time, thankfully winding down than anything 
else.
    To the best of our knowledge this is the last time that the 
EIA has published this particular chart laying out just how 
much hardworking taxpayers in our district and across the 
country are paying for energy subsidies. What happened? 
Environmentalist groups, along with our allies in Congress and 
the Obama Administration, pushed for and apparently succeeded 
in keeping this very simple, easy-to-read chart away from the 
public eye.
    I also have here the most recent report published just last 
month from 2016 which, Mr. Chairman, I'd like to enter into the 
record if that's possible.
    Chairman Smith. Without objection.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
     Mr. Babin. Thank you. There is no such table in 2016's 
report explaining how much that we are paying per megawatt hour 
for energy, so I understand that since we rely on them to call 
and report impartial data, the Energy Information 
Administration, it has a certain amount of autonomy from your 
direct management. But I would ask you, Mr. Secretary, would 
you be willing to offer your support for them to resume 
producing this same chart in future research products? 
Americans deserve to see the destinations of where their tax 
dollars are going.
    Secretary Perry. Yes, sir, absolutely.
    Mr. Babin. Would you be willing to do that?
    Secretary Perry. And I think it's it makes abundant good 
sense for the EIA to put that forward and make it public and so 
the American people can take a look at how their tax dollars 
are being----
    Mr. Babin. Absolutely. Thank you, and I really appreciate 
that because here we are in the age of energy independence here 
in the United States with all the developments in fossil fuel 
production, and do the American taxpayers need to continue that 
type of mammoth subsidies for this type of energy?
    Secretary Perry. Yes, sir.
    Mr. Babin. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Babin.
    And the gentlewoman from California, Ms. Lofgren, is 
recognized.
    Ms. Lofgren. Well, thank you, Mr. Chairman, and thank you, 
Mr. Secretary, for being here to talk with us about your 
department. And I was glad to hear from Mr. Foster and others 
how much time you've spent looking at our national labs and--
which is a great asset to our country, just miles and miles of 
brilliant people all over the country coming up with things 
that are going to change our future.
    One of the things I'd like to focus on today has to do with 
something that's going on at the Lawrence Livermore National 
Lab, and that is the National Ignition Facility. I have--you 
know, Livermore Lab is not in my district, but it's something 
I've been interested in for a long time and I've followed since 
its inception. I was glad to hear you say this morning that 
fusion has the potential to change the world. We know fusion 
exists because we have a sun, but we're not sure when we will 
achieve it. We're achieving fusion now, we're just not 
achieving ignition. And when we do, that's a gamechanger for 
the world.
    So given the potential benefits and the money that we spent 
to make this facility a reality, it was disappointing to see 
the budget recommendation. Now, I know that the Secretaries 
don't always get the last say on what is requested. The OMB has 
a big role, and we all served with Mick Mulvaney when we he was 
here in the House, and I got along well enough with Mick when 
he was here, maybe better than in his current position.
    I was concerned that the budget would effectively result in 
a 40 percent reduction of shots at the NIF from 400 to 250, it 
would eliminate 160 jobs out of the 750 associated with that. 
It even eliminated funding for General Atomics, again not in my 
district down in San Diego that provides the target 
fabrication, which would actually increase the cost. If you 
don't have a target, you don't have a program. If you have 
targets but you eliminate funding for the only source of those 
targets, you're going to increase the cost.
    So I'm wondering--I know that the Appropriations Committee 
is working on this. It's possible that some changes will be 
made here, but I'm just wondering if you can talk about what 
you think about fusion and NIF's future.
    And I want to say something else. You know, the new 
graduates in high-density physics don't necessarily want to 
work only on the weapons program. They want to work on science 
programs. And if we eliminate our pipeline of physicists into 
these labs by cutting the science, we're not going to be able 
to do the Stockpile Stewardship Program, which is the main 
function of course of the National Ignition Facility. So I 
wonder if you could comment----
    Secretary Perry. Ms. Lofgren, I----
    Ms. Lofgren. --on any of those things?
    Secretary Perry. Yes, ma'am, thank you. And I agree with 
your observation about the intellectual pipeline. And one of 
the reasons that we are valiantly trying to express our support 
for Westinghouse so that the United States can maintain its 
position on the reactor side, it's just like kids--when I was 
going to college, all the really smart kids wanted to be 
nuclear engineers. And for about 40 years because of benign 
neglect and some other events, some accidents, et cetera, 
nuclear power, civil power became kind of out-of-favor.
    This fusion side I think gives us the opportunity, and I 
think we can reasonably have our disagreements about, you know, 
we are not going to have the funding for every worthy 
initiative, we know that, and--but we can have these 
conversations back and forth, which are important. And whatever 
this committee and Congress decides on from the standpoint of 
your priorities, we're going to manage them as well as can be 
done.
    Ms. Lofgren. Thank you. And I know my time is up. I'd just 
like to say we spent a lot of money building this facility, and 
to walk away from it after we've built it, you know, now that 
China is on our heels, you know, we want to be the leader. We 
want don't want to be behind China on this. So thank you, Mr. 
Secretary.
    Chairman Smith. Thank you, Ms. Lofgren.
    The gentleman from Florida, Mr. Dunn, is recognized for his 
questions.
    Mr. Dunn. Thank you very much, Mr. Chairman. And thank you, 
Mr. Secretary, and your Under Secretaries, for joining us here 
today. I found a lot to celebrate in looking at your budget, 
but I'd like to focus on a small niche in it that's the medical 
use, the healthcare use of medical isotopes.
    Secretary Perry. Oh, yes.
    Mr. Dunn. So when Under Secretary Dabbar was with us here 
back in January, we discussed the market availability of a 
variety of medical isotopes and how the isotope program in the 
Department of Energy is actually run more like a business than 
it is an agency. And I was just wondering where in this budget 
are we looking to invest in American capabilities to generate 
the full array of medical isotopes so that we're not dependent 
on foreign sources for high-priority medical isotopes.
    Secretary Perry. Yes. This kind of fits into the same arena 
as some of our rare earth minerals as well, just that the 
United States is going to be, I think, required to supply these 
ourselves. And for us to do the science, to do the funding of 
this so that we are not beholden to countries around the world 
that may not have our best interest in mind. I think about 
cobalt and the importance that cobalt can play, lithium, the 
importance that Lithium-6 is going to play going forward in the 
pit production for the weapons side of things.
    So focusing and being dependent upon U.S.-based sources of 
these very important elements is a focus of the Department, and 
you know that we will continue to prioritize the funding for 
these types of programs. And as I have shared with Ms. Lofgren, 
you know, there are a lot of worthy initiatives out there that 
we don't have all the funding for them all. But in this area I 
think that is a priority of the Administration; it is a 
priority of our agency.
    Mr. Dunn. I'm glad to hear that. We see a lot of dependence 
on the newer isotopes in PET scanning, for instance, but not 
just PET scanning, also in therapeutics, and so I just want to 
make sure that the DOE is facilitating the development and 
actual construction of sufficiently energetic accelerators and 
some reactors. We need reactors, too.
    Secretary Perry. Mr. Dunn, if I can just take a little bit 
of a turn away from that and talk about on the supercomputing 
side of things. We're standing up an office that's going to be 
referred to as Artificial Intelligence Big Data Initiative, 
ABI, and the focus there is going to be on precision medicine. 
We were out at Lawrence Livermore talking to some of their 
folks who are working with University of California San 
Francisco neuroscientists about managing all of this big data. 
It's why our supercomputing investment is so important, and on 
precision medicine is one of those.
    I mean, the great progress that I think, Dr. Babin, in the 
future is going to be in the ability to manage all of this big 
data and those supercomputers. And five of the ten fastest 
supercomputers in the world belong to the Department of Energy. 
And soon, because of Argonne and the work that we're going to 
do with Fermi and Oak Ridge, we're going to be back in the 
position of being the number one. And how long we last as 
number one is going to be up to us----
    Mr. Dunn. It's up to us.
    Secretary Perry. --but anyway, this precision medicine, 
there's not much I'm more excited about than what we see with 
our ability to manage all this big data focused on precision 
medicine.
    Mr. Dunn. Well, thank you very much. I look forward to 
spending this weekend at Argonne Lab----
    Secretary Perry. Yes, sir.
    Mr. Dunn. --studying that with Under Secretary Dabbar.
    And I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Dunn.
    And I believe now we're going to go to the gentleman from 
New York, Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair.
    And, Secretary Perry, it's good to see you again----
    Secretary Perry. Yes, sir.
    Mr. Tonko. --and it's good to see the work you continue to 
do in terms of visiting the national labs and supporting the 
DOE workforce.
    I want to ask you about two important programs, however, 
within the office of EERE. The Weatherization Assistance 
Program is the largest residential energy conservation program 
in our nation. It reduces the energy burden on low-income 
families and creates jobs. State energy program enable States 
to assist with energy efficiency and renewable energy projects, 
as well as develop critical energy emergency preparedness and 
response plans.
    As a former Governor, you likely have witnessed the value 
of these programs, and you understand that on-time delivery of 
weatherization and state energy program funds to States is 
crucial to ensuring these programs continue to run and run 
effectively. For weatherization, most States expect this 
funding on July 1. Will you ensure that weatherization state 
grantees and state energy program grantees will receive these 
funds on time this year?
    Secretary Perry. Yes, sir.
    Mr. Tonko. I think that's critical.
    Turning to a different DOE office, do you believe that the 
Office of Electricity research programs are valuable in terms 
of their potential to improve grid reliability and resilience 
through technologies such as storage, microgrids, and other 
smart grid technologies?
    Secretary Perry. I do, Mr. Tonko. I believe it's important 
that we again recognize the--and I can't remember who--I think 
was Mrs. Johnson I was having the conversation earlier about 
the prioritization. And as some of these programs mature, then 
the funding will obviously fall off for them as we look to the 
next big thing that's out there. And I think this fits right in 
to this area that you're making comment about as well.
    Mr. Tonko. Well, earlier this year, DOE announced the 
creation of the Office of Cybersecurity, Energy Security, and 
Emergency Response, and I'm not necessarily opposed to this 
reorganization but I would like to understand how it might 
affect existing programs that will remain within the Office of 
Electricity. Cybersecurity is an important issue. That deserves 
to be elevated, but it should not be done at the expense of 
other critical programs.
    Secretary Perry. Yes.
    Mr. Tonko. So are you committed to ensuring that there are 
sufficient resources and personnel for the Office of 
Electricity Grid Modernization and Energy Storage Programs, 
which are also essential for improving grid reliability?
    Secretary Perry. Yes. And we are continuing to fund--
``beyond batteries'' is in that shop, hydrogen R&D is in that 
shop. When I was out--I believe we were at Savannah River. We 
were looking at hydrogen fuel. And I don't want to get deep in 
the weeds here, but this is pretty exciting stuff when you look 
at hypersonic aircraft and the ability to be anywhere in the 
world in I mean literally 4 hours, and you can do that because 
of this hydrogen fuel.
    So there's still a lot of exciting work to be done in the 
EERE. Again, you know, we can have our disagreements about line 
item to line item, but the commitment is still there to come up 
with the new big things and to prioritize them and what have 
you. CESER got moved over and split out from that because of 
the very special focus that needs to be on cybersecurity in 
this country today.
    Mr. Tonko. Well, thank you, Mr. Secretary. The President's 
budget request proposes a 74 percent cut to smart grid 
research, a 67 percent cut to clean energy transmission and 
reliability, and an 81 percent cut to energy storage R&D. So if 
this Administration is truly committed to improving grid 
reliability and resiliency, then these proposed cuts need to be 
rethought and removed. So I appreciate whatever assistance you 
can provide----
    Secretary Perry. Yes, sir.
    Mr. Tonko. --in making certain that these stabilizers are 
there that are essential.
    And with that, Mr. Chair, I yield back.
    Chairman Smith. Okay. Thank you, Mr. Tonko.
    And the gentleman from Louisiana, Mr. Higgins, is 
recognized.
    Mr. Higgins. Thank you, Mr. Chairman.
    Secretary Perry, I very much appreciate your service to 
your country and your continued commitment to restore energy 
dominance of America in your current position.
    I represent south Louisiana, the epicenter of LNG expansion 
for the entire world. And the district I represent is commonly 
referred to by my Lone Star colleagues as east Texas. So 
keeping that in mind, I'd see a great partnership between the 
State of Texas and the State of Louisiana as we seek energy 
dominance for our nation.
    I very much appreciated your comments regarding management 
efficiency and operating within the parameters allowed to your 
Department by the appropriators of this Congress. I also 
support the President's overall effort to reduce the size and 
scope of the agencies of the federal government that devour the 
people's treasure, so I very much appreciate your approach, Mr. 
Secretary, regarding the efficient operation of the Department 
of Energy and the agencies therein.
    I'd like to ask you about grid security. The Grid 
Modernization Laboratory Consortium, the GMLC, is committed to 
advancing development of new tools and technology to increase 
grid resilience and particularly from cyber attacks. How does 
protection against EMP fit within that endeavor? And just how 
much focus are you placing upon? I personally think it's a 
great threat to our nation, and within the confines of this 
environment obviously being a more open discussion, could you 
share with us what DOE is doing regarding the EMP protection of 
our grid?
    Secretary Perry. Yes, sir. I'll just speak in a 
generalization that that is certainly one of the challenges 
that we have and we recognize it. The work that they're doing 
at Idaho National Lab with the test grid there, it's--they're 
addressing it is I think the appropriate thing for me to share 
with you at this time.
    The consortium supports, you know, the critical research 
and development in a host of different areas, advanced storage. 
Beyond batteries that I mentioned earlier is certainly one of 
those clean-energy integration standards and test procedures, 
and a number of other really key modernization areas, the least 
of which is not making sure that the grid is protected from 
cyber attacks, from EMP-type of attacks, and other anomalies 
that could be released upon our grid so that the American 
people will know with some surety that when they flip the 
switch on, the lights will come on.
    Mr. Higgins. Thank you for that answer. And just please 
share with this Committee regarding the budget and what you 
envision as required to secure our nation's grid against EMP. 
Are you satisfied with the budget that you received? Can you 
work within those parameters?
    Secretary Perry. Yes, sir.
    Mr. Higgins. Do we need to help you by increasing that 
budget?
    Secretary Perry. We can work within the parameters.
    Mr. Higgins. Thank you, sir, for your answer.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Higgins.
    Mr. Secretary, we know you have to leave for a Cabinet 
meeting. Thank you for spending the time you have with us. And 
I understand Mr. Dabbar can continue to stay and answer 
Members' questions. Mr. Dabbar is the Under Secretary for 
Science, so I think he'll be able to address most of the 
Members' comments and questions after the Secretary leaves.
    Let me also say that I'm going to need to excuse myself, 
Mr. Dabbar. I have a Judiciary markup that's ongoing, so I'm 
going to head there.
    But we appreciate again, Mr. Secretary, your being here, 
Mr. Dabbar, your being willing to stay. I know we have at least 
three Members more on either side, and up next is the gentleman 
from Florida, Mr. Crist. So Mr. Secretary, as soon as you 
leave, we'll recognize Mr. Crist to address his questions to 
Mr. Dabbar.
    Mr. Crist. Governor----
    Secretary Perry. Governor, I wish I could stay and hang out 
with you.
    Mr. Crist. I wish you could, too.
    Secretary Perry. It's good to see you, sir.
    Mr. Crist. It's good to see you, sir.
    Secretary Perry. My day job requires me to walk across the 
way and--but if there's--in all seriousness to each of the 
Members that are still here, if there are questions that you 
need me or want me to address personally, I will make that 
happen in some form or fashion. But I'm leaving a very capable 
fellow right here, although he could not get into Texas A&M. He 
had to go to the Naval Academy. They trained him up pretty 
well. So, anyway, thank you, Mr. Chairman.
    Mr. Crist. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman, and thank you, Under Secretary Dabbar, for being able 
to stay here and help us out today.
    My hometown, which is the city of St. Petersburg, Florida, 
was one of the first cities in the country to commit to 
transitioning to 100 percent renewable energy. It's a lofty 
goal, and I commend the city for being proactive in reducing 
carbon emissions. However, I am concerned that the cuts to the 
energy research and development within this budget proposal 
will make that goal much more difficult. Those cuts happen to 
include a 66 percent cut to renewable energy, an 80 percent cut 
to energy storage research and development within the Office of 
Electricity, and complete elimination of the Loan Programs 
Office, just to name a few. Do you think that this budget 
proposal will spur the kind of American innovation that's 
needed to help my hometown of St. Petersburg and other 
communities meet their clean energy goals?
    Mr. Dabbar. Thank you, Congressman, Governor. I very much 
appreciate that question.
    Mr. Crist. Certainly.
    Mr. Dabbar. As the Secretary said, line items on budgets 
are subject to your appropriation and your focus. Our focus is 
to take the resources that you give us and to maximize that. 
And we are very excited. I think as you may know, the cost-
effectiveness of solar and wind and other renewables in the 
last decade has dramatically improved in part--large part 
because of the Department and the national lab complex.
    Another area is also in batteries and storage. And so what 
we're trying to do is to try to take the--not only the great 
research that you fund but also try to push it out into the 
market and also very importantly push it out into the market so 
that it's manufactured here in the United States. And so those 
are the areas that we're focused on. And we continue to take 
the resources that you give us and build on the accomplishments 
and all those in many other areas for St. Petersburg and other 
localities that want to attack it that way.
    Mr. Crist. Great. Thank you. Earlier this year, the 
President imposed a four-year tariff on solar cells. I 
understand that you may not have had any direct involvement 
with that decision, but I have some very serious concerns about 
the impact it's having on our domestic solar industry. The 
Solar Energy Industries Association says that this tariff could 
cost as many as 23,000 American jobs this year alone. 
Meanwhile, as far as I'm aware, no one has really given an 
estimate as to how many manufacturing jobs would be created. 
That plus the 72 percent cut to solar in this budget makes me 
think that the solar industry may be under fire. What is the 
Department of Energy planning to do to support those companies, 
their employees, and the solar industry as a whole when they 
have been negatively impacted by this tariff?
    Mr. Dabbar. Thank you. So the primary focus for the 
Department is around innovation and technology. That is our 
primary focus. Sir, as you said, we are not involved in some of 
those points that you were just mentioning. So what we're 
really focused on--and I'll talk about solar--is what is the 
next technology? And it's great that there's been significant 
improvement in cost and therefore affordability and 
applicability within--for localities to deploy solar and wind 
and others. But a big focus for us is what's next. What can we 
continue to move down the cost structure and develop those 
technologies?
    So on solar, for example, perovskite crystals is a new area 
that we think could continue to drive down potentially the cost 
curve and make it even more affordable for St. Petersburg and 
other places to attack. And once again, we're very focused on 
that and we're very focused on once again those new 
technologies hopefully being developed and built here.
    Mr. Crist. Great. Thank you, sir. I appreciate that. I want 
to switch gears and talk briefly about offshore drilling. I 
know that the Interior Department handles that issue primarily, 
but as Governor of Florida when Deepwater Horizon exploded and 
I was a Congressman representing a coastal district, offshore 
drilling is always at the forefront of my mind. In Florida our 
economy is really dependent upon our environment vis-a-vis 
tourism. The threat that offshore drilling poses to our oceans 
and coastal communities is not worth the risk in my opinion. I 
know that may be different where the Secretary is from in Texas 
where drilling does significantly contribute to the economy. I 
simply ask that you appreciate that States like mine are 
concerned with the Administration's proposal and that you share 
our concern with the Secretary, as well as other members of the 
Cabinet, as appropriate. And I appreciate you being here again, 
and I yield back.
    Mr. Lucas. [Presiding] The gentleman yields back.
    The Chair recognizes the gentleman from Alabama, Mr. 
Brooks, for four minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    Hopefully, you're the right individual to ask, but if not, 
if you would please relay this question to Secretary Perry.
    The Trump Administration says it wants to revive the 
nuclear industry because developing new nuclear projects is 
critical to the long-term viability of the nuclear industry. 
Currently, the Vogtle plant is under construction, and there is 
also an additional proposal to finish two new nuclear plants at 
Bellefonte in my Congressional District. Hopefully, you are 
aware of them.
    Many billions of dollars were spent by TVA on the two 
Bellefonte plants, and completion was substantially underway 
before the spending of those monies was stopped. If those 
plants are completed, that will bring thousands of jobs and 
billions of dollars in private sector money to the economies of 
Alabama, Georgia, and Tennessee, as well as creating a reliable 
source of nuclear power with essentially no greenhouse gases.
    It is important to have viable financing support through 
programs like the Department of Energy loan guarantees, and I 
understand that an important goal of the Energy Policy Act of 
2005 is to encourage the construction of more nuclear plants, 
including those involving public-private partnerships via 
programs like those Department of Energy loan guarantees.
    That being the question--the case and before you respond to 
my two questions, let me add that Under Secretary Moniz, who 
appeared before our Committee, and his staff have been in 
communication with us and we appreciate the reference.
    So here are the questions. First, can you comment on the 
status and future of the Department of Energy loan guarantee 
program as it pertains to the Bellefonte project specifically 
or else generally? And second, will the Administration commit 
to expanding America's nuclear power fleet?
    Mr. Dabbar. Thank you, Congressman. So on your first 
question, yes. In addition to talking with your office, the 
Loan Program Office has been engaged in talking with the team 
that has the option to purchase the Bellefonte plant, and 
they're very much continuing those conversations. And, you 
know, within the context is what's the authority? What is 
required in order to meet the requirements of the loan is 
ongoing with them. So I can confirm that that is taking place, 
as well as the conversations with your office directly.
    Around the area of commercial nuclear in general, I think 
as the Secretary said, several times making references to 
Westinghouse and development, as well as both his and my 
comments around it, the request on the advanced nuclear 
program, as well as on safe fuel that we just issued a new FOA 
on this last week is a high degree of focus for us. It's 
important for us as a country to continue our leadership on a 
broad range of issues for commercial nuclear, and we appreciate 
the consideration for that request in the budget.
    Mr. Brooks. Thank you, sir.
    Mr. Chairman, I yield back.
    Mr. Lucas. The gentleman yields back.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Beyer, for four minutes.
    Mr. Beyer. Thank you, Mr. Chairman. I'd like to begin by 
submitting to--for the record if there's no objection a letter 
from 87 bipartisan Members of the House to Chairman Simpson and 
Ranking Member Kaptur on Appropriations on ARPA-E Energy 
Innovation Hubs and EFRCs.
    Mr. Lucas. Seeing no objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Beyer. Thank you very much.
    Under Secretary Dabbar, you know, we live with yesterday's 
tragic news of President Trump's decision to withdraw from 
JCPOA, the Iran deal. Secretary Perry's predecessor, Dr. Moniz, 
a nuclear physicist, was deeply and extremely involved in the 
building and the--of the negotiations that surrounded the deal. 
Do you have any evidence that Iran was failing to meet its 
obligations under the JCPOA or any reason that would justify 
the United States' reneging on its commitment to JCPOA?
    Mr. Dabbar. I apologize, Congressman. I don't have any, nor 
have I participated in, any conversations with the Department 
around that topic.
    Mr. Beyer. I wonder. It's--you know, I'm far down the 
pecking order, but it would be wonderful in the appropriate way 
to request you would pass these questions on to Secretary 
Perry.
    Mr. Dabbar. I----
    Mr. Beyer. And try to get these back within 24 hours if 
possible?
    Mr. Dabbar. Well, I'll pass it along to the Secretary about 
your question, and he'll follow up----
    Mr. Beyer. And whatever----
    Mr. Dabbar. --with what's appropriate----
    Mr. Beyer. --from a staff perspective, whatever formal way 
we can get these entered would be also--I also think it's a 
little tragic that the Under Secretary for Science would not be 
included in those discussions. I certainly know that the 
science folks at the previous Department of Energy were deeply 
involved.
    You know, the Secretary has consistently referred to the 
resiliency and reliability of the grid as the reason for the 
concern about the nuclear and coal power plant closures. When 
the Secretary used his power under section 403 to appeal to 
FERC to bail out the coal companies in the name of resilience, 
FERC rejected that request. And now FirstEnergy has asked the 
Secretary to invoke his 202(c) power under the Federal Power 
Act and prevent PJM, the electrical distributor, from retiring 
plants.
    Assistant Secretary Bruce Walker said the DOE would never 
use an emergency order under section 202(c), the Federal Power 
Act, to prop up an uneconomic generator. And PJM has 
demonstrated that their retirement of plants do not affect the 
reliance of the grid. Republican FERC Commissioner Neil 
Chatterjee just yesterday said that the retirements will not 
impinge on resilience. And if FirstEnergy's bailout is granted, 
it would raise the cost of electricity by $8 billion annually 
for its consumers. It would discourage any investments in clean 
energy resources and begin the slippery slope of the federal 
government dictating the energy mix of States. So do you have 
any idea whether the Secretary intends to reject this bailout 
of FirstEnergy?
    Mr. Dabbar. So I can't comment on ongoing discussions 
specifically on that, but obviously, it's an important aspect 
of what we do from a technology point of view regarding 
reliability and power. A lot of what we do at the Department is 
evaluate and look at technologies associated with the changing 
energy mix. Obviously, taking baseload power off has an impact. 
That's an obvious point. And a lot of energy has been replaced 
with intermittent. And, you know, we think it's appropriate for 
it to be reviewed and it is being reviewed.
    Mr. Beyer. Great. Thank you. And perhaps we can also send 
this question to the Secretary, too, on his intentions on the 
bailout.
    Mr. Dabbar. We'll pass the question along, too, also 
Congressman. Thank you.
    Mr. Beyer. Thank you very much.
    And lastly, we know that a diverse grid incorporates 
renewables but that their intermittent reliability and 
intermittency is an issue and that battery storage, especially 
grid-scale battery storage, is the key to this diverse and 
resilient grid that you talk about. Do you know--are you 
supportive--is the Secretary supportive of FERC order 4--841 
that directs the ISOs and the RGOs to develop market rules to 
more fully integrate energy storage as a resource on the 
electric grid?
    Mr. Dabbar. Congressman, I can't comment specifically to 
the FERC order, but I can say that, in general, including 
battery storage as reliability backup to the electric grid, is 
an important technology that we're providing and I think should 
get properly included in the market structure.
    Mr. Beyer. And I'm really impressed that AEP, which is--or 
AES rather, which is headquartered in my district in Rosslyn 
just across the river that their single biggest project right 
now is battery storage facility in California.
    Mr. Dabbar. So----
    Mr. Beyer. Globally, so----
    Mr. Dabbar. So battery storage is a major focus of what 
we're looking at around commercialization, a much longer topic, 
but one of the things that we focused on around 
commercialization of what are the major technologies that you 
all and the taxpayers have allocated money, and the one area 
that we're attacking first is how do we accelerate the 
technologies that we've developed on new chemistries for 
batteries that could potentially be much better than the 
lithium-ion.
    The first event that we're doing, a first multi-lab event 
that we're doing on how to push forward stronger our 
technologies is on batteries. We're doing that at Stanford in 
conjunction with the university and our SLAC laboratory where 
we're inviting all the labs together to meet with industry to 
figure out how do we take the next wave of technologies on 
batteries beyond lithium-ion as we like to call it and how to 
move that forward for the country.
    Mr. Lucas. The gentleman's time has expired.
    The Chair now recognizes the gentleman from South Carolina, 
Mr. Norman, for five minutes.
    Mr. Norman. Thank you, Mr. Dabbar.
    Can you give us an update on the DOE's approval of the 
Advanced Manufacturing Collaborative that's located in Aiken, 
South Carolina? And as you know, the intent is to have a 
workforce training of manufacturing jobs.
    Mr. Dabbar. So I can repeat again that this is a high 
degree of focus for us. This is something that we are 
completely supportive of at the Department, and we continue to 
work with OMB around getting the final approvals of this, and 
we certainly hope that we will be able to do that in the near 
future.
    Mr. Norman. Do we have a timing that you would think?
    Mr. Dabbar. I would hope it's quite near, but it's been 
quite near for a little while, and I can say it has a 
disproportionately high focus within the Department compared to 
the cost.
    Mr. Norman. We appreciate that. Later this month, the 
Committee will hold a hearing on technology that supports 
veterans. Here, we will include a witness from your department 
who will be providing us information on the MVP Champion 
program. It's very important to veterans. Can you give us some 
update on that?
    Mr. Dabbar. Yes, Congressman. So just--as people may know 
here, the Department of Energy has a long history in the bio 
area in genomics, and with a very long history, and so this is 
quite consistent with what the Department has done over time. 
One of the things that we have a great leadership role in the 
world is supercomputing and applying that to various different 
health topics, including around genomics. This is a program 
that we are continuing to move along, work with the VA and work 
with the National Institutes of Health. And we continue to move 
that along, and it's a part of funding discussions as part of 
this budget.
    Mr. Norman. And if you could provide this committee with 
information, updates I guess on it on how it would be impacting 
exactly what we would be doing, and we would appreciate it. And 
if there's anything that you think we can do as a Congress, 
we'd definitely like to know that.
    Mr. Dabbar. Thank you, Congressman. We'll follow up with 
that detail, and it is an important area, and we'll get you 
that detail if that would be helpful for your deliberations.
    Mr. Norman. Thanks so much. I yield back.
    Mr. Lucas. The gentleman yields back.
    The Chair now recognizes the gentleman from the big 1st 
District of Kansas, Dr. Marshall, for five minutes.
    Mr. Marshall. Yes, thank you, Chairman.
    Let me start by saying thank you. Excuse me. The Secretary 
lined out several of your vision, your goals, stewardship, 
accountability, and service, and several of my folks back home 
in the energy sector have said indeed, under this 
Administration, things are going in a positive direction. 
Especially my friends from the Cuyahoga, Kansas, oil and gas 
industry expressed their gratitude.
    I've been waiting here so long my throat got scratchy.
    The Secretary has been a leader to ensure resiliency of the 
electric grid and has proposed that several proposed actions 
that could favor fuels with onsite storage like nuclear and 
coal. How could this approach disadvantage natural gas in 
particular, which is currently the most affordable fuel on the 
market, and what steps is the Department taking to invest in 
grid resiliency without picking winners and losers in the 
energy market?
    Mr. Dabbar. Yes. So thank you, Congressman. You know, I 
think it's been a long history of this country to have 
diversity. The all-of-the-above is an important aspect to it. 
Obviously, natural gas has had significant improvements in 
technology, and whether it's in turbine efficiency or 
production costs. And once again, we do feel this is generally 
appropriate, as has been a bipartisan view of having diversity 
across all the energy types and that we can continue that. So 
we consider natural gas just as important as nuclear and coal.
    What other areas are we focused on around grid resiliency? 
This is a particularly interesting area for me as Under 
Secretary of Science. What one particular area that we're 
focused on is in machine learning and artificial intelligence. 
Collecting data from the grid on all the different data points 
around weather, around wind, around solar intensity, around 
demand that's coming up the next day or the next week as a 
result of those coming through, all the capabilities of the 
power plants, the costs associated with interconnections is a 
great example of the applicability of machine learning for 
potential grid management. And we actually have a number of 
different machine-learning algorithms on how to optimize the 
grid that will help resiliency, will help dispatch to lower 
costs, and it's a particularly very interesting area for us 
that, in addition to the points that the Secretary made earlier 
that I wanted to point out on this important topic.
    Mr. Marshall. Okay. Next, I want to talk a little bit about 
low-dose radiation health risk. As a physician, it's been an 
area of concern. We certainly know that at some point there's 
an all-or-nothing phenomena for radiation, whether dealing with 
a pregnant woman or an adult, and we don't really know, you 
know, where those limits are for low-dose radiation. And the 
House proud that we passed H.R. 4675, the Low-Dose Radiation 
Research Act.
    Under the previous Administration, research in this area 
was abruptly called to a stop for some reason. Can you commit 
today to restore the Department's leadership in this field of 
science?
    Mr. Dabbar. Congressman, as a user of low-dose radiation 
earlier in my nuclear engineering days, I'm completely 
sympathetic of the topic. We certainly have been discussing 
this. Certainly, we've been getting up to speed on the past 
work that has been done. And should you appropriate that 
exactly how we would take it forward, so should that happen, 
should you appropriate, we actually have specific ideas and 
plans. We're really focused on the genomics aspects, which is a 
bit new compared to the previous work in the last 
Administrations that have focused on this topic. There's 
obviously an area of focus for and expertise for the Department 
should it be appropriated.
    Mr. Marshall. Right. I spent a little time exposed to some 
low-dose radiation myself in a nuclear reactor at Kansas State 
University.
    Lastly, I'd like to just talk about CFIUS for a second, in 
particular referring to Citgo. I don't know all the details but 
I think Russia recently invested in Citgo, some concern on my 
part about a Russian zoning refining industries in this country 
and just wonder if the Department has any concerns about this.
    Mr. Dabbar. I apologize. I'm not the right person, but we 
can certainly follow up with that question.
    Mr. Marshall. Okay. Thank you, and I yield back.
    Mr. Lucas. The gentleman yields back.
    The Chair wishes to thank both the Secretary and the Deputy 
Secretary for their testimony and the Members for their 
questions.
    The record will remain open two weeks for additional 
written comments and questions from the Members.
    This hearing is adjourned.
    [Whereupon, at 10:51 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by the Hon. Rick Perry

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Delivering Government Solutions in the 21st Century Reform Plan and 
                     Reorganization Recommendations
                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                     


Visit https://www.performance.gov/GovReform/ to view the entire report.

                                 <all>
</pre></body></html>
